ry

APPENDIX A
US Court of Appeals
Panel Denial Of Request for Rehearing March 2, 2021
Opinion US Court of Appeals for 3d Circuit Jan 28, 2021

Case: 20-1983

Document: 40

Page: 1

Date Filed: 03/02/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1983

BLANCHE A. BROWN,
Appellant
v.
POLICE CHIEF JOSEPH FRIEL, in his Individual and Official Capacity;
GROVER KOON, Valley Twp. Magisterial Judge
in his Individual and Official Capacity;
VALLEY TOWNSHIP POLICE DEPARTMENT;
VALLEY TOWNSHIP MANAGER/ADMINISTRATOR, in his Official Capacity;
VALLEY TOWNSHIP AND GOVERNING BOARD/SUPERVISORS

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-16-cv-01819)
District Judge: Honorable Juan R. Sanchez

PETITION FOR REHEARING

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

Case: 20-1983

Document: 40

Page: 2

Date Filed: 03/02/2021

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is denied.
BY THE COURT,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated: March 2, 2021
CJG/cc:
Blanche A. Brovvn
Gregory C. Kunkle, Esq.
Martha Gale, Esq.

Case: 20-1983

Document: 40

Page: 2

Date Filed: 03/02/2021

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc is denied.

BY THE COURT,
s/Joseph A. Greenaway, Jr.
Circuit Judge
Dated: March 2, 2021
CJG/cc:
Blanche A. Brown
Gregory C. Kunkle, Esq.
Martha Gale, Esq.

Case: 20-1983

Document: 40

Page: 1

Date Filed: 03/02/2021

\

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1983

BLANCHE A. BROWN,
Appellant
v.
POLICE CHIEF JOSEPH FRIEL, in his Individual and Official Capacity;
GROVER KOON, Valley Twp. Magisterial Judge
in his Individual and Official Capacity;
VALLEY TOWNSHIP POLICE DEPARTMENT;
VALLEY TOWNSHIP MANAGER/ADMINISTRATOR, in his Official Capacity;
VALLEY TOWNSHIP AND GOVERNING BOARD/SUPERVISORS

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-16-cv-0l819)
District Judge: Honorable Juan R. Sanchez

PETITION FOR REHEARING

Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

Case: 20-1983

Document: 32

Page: 1

Date Filed: 01/28/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-1983

BLANCHE A. BROWN,
Appellant
v.

POLICE CPIIEF JOSEPH FRIEL, in his Individual and Official Capacity;
GROVER KOON, Valley Twp. Magisterial Judge in his Individual and Official
Capacity; VALLEY TOWNSHIP POLICE DEPARTMENT;
VALLEY TOWNSHIP MANAGER/ADMINISTRATOR, in his Official Capacity;
VALLEY TOWNSHIP AND GOVERNING BOARD/SUPERVISORS

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil Action No. 2-16-cv-01819)
District Judge: Honorable Juan R. Sanchez

Submitted Pursuant to Third Circuit LAR 34.1(a)
December 15, 2020
Before: GREENAWAY, JR., KRAUSE and BIBIAS, Circuit Judges
(Opinion filed: January 28, 2021)

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 20-1983

Document: 32

Page: 2

Date Filed: 01/28/2021

PER CURIAM
Pro se appellant Blanche Brown appeals the District Court’s orders granting one
defendant’s motion to dismiss and granting summary judgment to the remaining
defendants. We will affirm the District Court’s judgment.
This case arises out of a long-running dispute between Blanche Brown and her
half-brother James Brown.1 As the District Court discussed in great detail, both Brown
and James sought assistance from Valley Township Police Chief Joseph Friel. Friel
counseled both Brown and James to cease contact with the other. When Brown
continued to contact James (and his girlfriend), Friel twice issued citations to Brown for
harassment.
Brown and James continued to seek help from Friel. Brown informed him that she
had found a bullet shell in a church parking lot near her house and that she thought James
had "plotted to enter my home and kill me.” ECF No. 74-4 at 30. She also claimed that,
by failing to more aggressively respond to her complaints, Friel had "given James
permission to come after me with the intent to kill me.” Id. at 31. Friel denied those
accusations and urged Brown to continue to use the legal system. Eventually, trial was
held on the citations before Magisterial District Judge Koon. Brown signed an

This opinion will refer to the appellant as "Brown” and her half-brother as "James.”
2

Case: 20-1983

Document: 32

Page: 3

Date Filed: 01/28/2021

“Alternative Sentencing Contract” in which she agreed that she would have no contact
with James either directly or through a third party.
Brown then filed the complaint at issue here. She raised numerous claims under
42 U.S.C. § 1983 contending that Friel, Judge Koon, and various supervisory and
institutional defendants had violated her due-process rights, maliciously prosecuted her,
and caused a state-created danger, among many other things. The District Court
dismissed the claims against Judge Koon, concluding that he was protected by absolute
judicial immunity. See ECF No. 69. The Court then granted summary judgment to the
remaining defendants, see ECF No. 143,2 and Brown filed a timely notice of appeal.
We have jurisdiction under 28 U.S.C. § 1291. We exercise plenary review over
the dismissal and summary judgment orders. See Blunt v. Lower Merion Sch. Disk, 767
F.3d 247, 265 (3d Cir. 2014) (summary judgment); Fleisher v. Standard Ins. Co., 679
F.3d 116, 120 (3d Cir. 2012) (dismissal). In reviewing a dismissal under Rule 12(b)(6),
“we accept all factual allegations as true [and] construe the complaint in the light most
favorable to the plaintiff.” Pinker v. Roche Holdings Ltd., 292 F.3d 361, 374 n.7 (3d Cir.
2002). “To survive a motion to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft

2 The Court also denied Brown’s motions for reconsideration and to reopen the judgment,
see ECF No. 152, but she has not developed any arguments challenging that order in her
opening brief, and we therefore do not address that order here.
3

Case: 20-1983

Document: 32

Page: 4

Date Filed: 01/28/2021

v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twomblv. 550 U.S. 544,
570 (2007)). Summary judgment is appropriate “if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a).
At the outset, we stress that an issue is forfeited “unless a party raises it in its
opening brief, and for those purposes a passing reference to an issue will not suffice to
bring that issue before this court.” Laborers’ Inf 1 Union of N. Am., AFL-CIO v. Foster
Wheeler Com.. 26 F.3d 375, 398 (3d Cir. 1994) (quotation marks, alteration omitted);
Mala v. Crown Bay Marina. Inc., 704 F.3d 239, 245 (3d Cir. 2013) (noting that pro se
litigants “must abide by the same rules that apply to all other litigants”). Therefore, while
Brown has included a litany of complaints in her brief, we will consider only those that
she has developed.
First, Brown claims that the District Court “copied and pasted” the defendants’
arguments. Br. at 20. However, she has not identified any passages that support this
claim, and we have not seen any in our independent reading. Indeed, we have found the
District Court’s analysis to be exceptionally careful and thorough. Thus, this claim lacks
merit. So does Brown’s contention that a Magistrate Judge played an improper role in
this case; the record reveals that each opinion was issued by a District Judge, not a
Magistrate Judge.

4

Case: 20-1983

Document: 32

Page: 5

Date Filed: 01/28/2021

Next, Brown complains that the District Court improperly dismissed her claims
against Judge Koon on the ground that he was protected by judicial immunity. We agree
with the District Court’s analysis. “[Generally, a judge is immune from a suit for money
damages.” Mireles v. Waco, 502 U.S. 9, 9 (1991) (per curiam).3 While this immunity
does not apply if the judge is sued for nonjudicial actions or actions “taken in the
complete absence of all jurisdiction,” id. at 11-12, neither exception applies here.
Brown’s claims concern Judge Koon’s conduct in presiding over trial on the harassment
citations, a quintessentially judicial function. Brown argues that Judge Koon lacked
jurisdiction, but as a magisterial district judge, Judge Koon had jurisdiction over the
summary offenses at issue. See 18 Pa. Cons. Stat. § 2709(c)(1); 42 Pa. C.S. § 1515(a)(1).
Accordingly, the District Court did not err in dismissing these claims. See generally
Gallas v. Supreme Ct. of Pa., 211 F.3d 760, 771 (3d Cir. 2000) (“[W]e hold that a judge
does not act in the clear absence of all jurisdiction when the judge enters an order at least
colorably within the jurisdiction of her court even though a court rule or other procedural
constraint required another judge to act in the matter.”).

3 Although “absolute judicial immunity extends only to claims for damages,” Larsen v.
Senate of the Commonwealth. 152 F.3d 240, 249 (3d Cir. 1998), “in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable.” 42 U.S.C. § 1983. Brown has not shown that this
exception applies. See Azubuko v. Royal. 443 F.3d 302, 303-04 (3d Cir. 2006) (per
curiam).
5

Case: 20-1983

Document: 32

Page: 6

Date Filed: 01/28/2021

Brown also argues that the District Court erred in granting summary judgment to
the defendants on her malicious-prosecution claim. However, there are numerous
problems with this claim. First, the charges were resolved via an “alternative sentencing
contract” that prohibited Brown from contacting James directly or through third parties;
this is not the type of “favorable termination” that is indicative of innocence. See Gilles
v. Davis. 427 F.3d 197, 211-12 (3d Cir. 2005) (so holding with respect to accelerated
rehabilitative disposition); Hilfirtv v. Shipman. 91 F.3d 573, 580-81 (3d Cir. 1996).
Second, as the District Court ruled, the record evidence shows that Brown suffered “no
seizure significant enough to constitute a Fourth Amendment violation in support of a
Section 1983 malicious prosecution action.” DiBella v. Borough of Beachwood. 407
F.3d 599, 603 (3d Cir. 2005). And third, while Brown raises a technical defense to the
charges, we agree with the District Court’s conclusion that a reasonable jury would find
that Friel had probable cause to conclude that Brown committed the crime of harassment.
See generally Dempsey v. Bucknell Univ.. 834 F.3d 457, 467 (3d Cir. 2016) (“Far from
demanding proof of guilt beyond a reasonable doubt, probable cause exists if there is a
fair probability that the person committed the crime at issue.” (quotation marks, alteration
omitted)); Holman v. City of York, 564 F.3d 225, 231 (3d Cir. 2009) (probable-cause
standard does not require officer to resolve “daunting issues”).4

4 This last point is also fatal to Brown’s retaliatory-prosecution claim. See Miller v.
Mitchell, 598 F.3d 139, 154 (3d Cir. 2010).
6

Case: 20-1983

Document: 32

Page: 7

Date Filed: 01/28/2021

Brown’s remaining arguments similarly lack merit. As the District Court
explained, Brown’s state-created-danger claim fails because she presented no evidence
that Friel acted with a degree of culpability that shocks the conscience; rather, the
evidence invariably shows that Friel sought to respond to Brown’s complaints and
deescalate the conflict between Brown and James. See generally Johnson v. City of
Phila., 975 F.3d 394, 401 (3d Cir. 2020). Likewise, she has failed to present evidence
that any of the defendants’ conduct was based on a policy or custom so as to establish
Monell liability. See Monell v. Dep’t of Soc. Servs.. 436 U.S. 658, 690-92 (1978).
Finally, the District Court did not err in refusing to recuse based on Brown’s unsupported
allegations of bias. See Securacomm Consulting. Inc, v. Securacom Inc.. 224 F.3d 273,
278 (3d Cir. 2000) (explaining that “a party’s displeasure with legal rulings does not form
an adequate basis for recusal”).
Accordingly, we will affirm the District Court’s judgment.

7

APPENDIX B:
US District Court of Eastern District of Pennsylvania
Opinions, Judgments and Orders

f

Case 2:16-cv-01819-JS Document 144 Filed 08/26/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

BLANCHE A. BROWN

No. 16-1819

v.
t

POLICE CHIEF JOSEPH FRIEL
IN HIS INDIVIDUAL AND OFFICIAL
CAPACITY, et al.
ORDER
AND NOW, this 26th day of August, 2019, upon consideration of Defendants Police Chief
Joseph Friel, Valley Township Supervisor, Valley Township Police Department, and Valley
Township Governing Board/Supervisors’ Motion for Summary Judgment, pro se Plaintiff Blanche
A. Brown’s opposition, Defendants’ reply, and Brown’s sur-reply, and the parties’ presentations
during the April 26, 2017, oral argument, and for the reasons stated in the accompanying
memorandum, it is ORDERED:
1.

Defendants’ Motion for Summary Judgment (Document 73) is GRANTED.

Judgment is entered in favor of Defendants on all counts.
2.

Brown’s Motion for Judgment on the Pleadings (Document 133) is DISMISSED

as moot.
3.

Brown’s “Corrected Motion for Judgment on the Pleadings” (Document 135) is

DISMISSED as moot.
4.

Brown’s “Motion for Court Order Mandating Defendant Police to Properly, and

Permanently Disarm Plaintiffs Valley Twp Known Stalker (pmsuantto PATitle 23 C.S. §§ 610122 and Judges Prat and Bortners Original Orders” (Document 136) is DISMISSED as moot.
Y
.

Case 2:16-cv-01819-JS Document 144 Filed 08/26/19 Page 2 of 2

i >

5.

Brown’s “Motion for Sanctions Pursuant to 28 USC 1927 also FRCP 16,26 and 37

and the Court’s Inherent Authority and to Strike Defendant’s Oppositions and Defenses”
(Document 140) is DENIED.
The Clerk is directed to mark this case CLOSED.

BY THE COURT:

Is/ Juan R. Sanchez
Juan R. Sanchez, C.J.

2

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 1 of 37

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
BLANCHE A. BROWN

CIVIL ACTION

v.

No. 16-1819

POLICE CHIEF JOSEPH FRIEL
IN HIS INDIVIDUAL AND OFFICIAL
CAPACITY, et al.
MEMORANDUM
Juan R. Sanchez, C.J.

August 26,2019

This matter stems from an intra-family dispute between pro se Plaintiff Blanche Brown
and her estranged half-brother, James Brown, into which the Defendants in this action—Chief of
Valley Township Police Joseph Friel, the Valley Township Supervisor, the Valley Township
Police Department, and the Valley Township “Governing Board/Supervisors,” were ultimately
drawn.1 At its core, Plaintiffs Amended Complaint alleges her civil rights were violated when
she was twice cited for—but never convicted of—harassing James. Defendants moved for
summary judgment on each of Plaintiffs numerous claims. Because no rational jury could, on
the basis of the record before the Court, find in Plaintiffs favor as to any of her claims, the
motion will be granted in its entirety.
FACTS2

l

In order to avoid confusion, the Court will refer to Blanche Brown as “Plaintiff5 and her halfbrother James Brown by his first-name.
2 The following facts are taken from the evidence in the summary judgment record, which
includes the attachments to Defendants’ Motion for Summary Judgment (Document 73),
Plaintiffs Opposition and Cross-Motion for Summary Judgment (Document 97), Defendants’
Reply (Document 100), and Plaintiffs Sur-Reply (Document 102), which was filed without
leave. The record in this matter is somewhat difficult to follow. Defendants appear to have
simply attached the entirety of their bates-stamped production to their motion, which included
duplicates and lacked any obvious organizational scheme. See Defs.’ Ex. C. And while Plaintiff
1

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 2 of 37

Although it is not altogether clear how the conflict between Plaintiff and James began,
the dispute reached a new level of acrimony when James sent a threatening email to Plaintiff
from the email account of his girlfriend, Richelle Solomon, on April 8, 2014. VTWP00073 (“If
you send me or Richelle another one of your fucking emailfs] then I’m [going to] give you a
problem that you can’t handle you crazy bitch” (emphasis in original)).3 Shortly thereafter, on
April 15, 2014, both Plaintiff and James contacted the Valley Township Police Department about
the other’s alleged harassment. See VTWP00075 (noting James advised “he had been receiving
harassing emails from his sister, Blanche Brown”); Opp’n Ex. 1-C-l (“I most recently received
what I consider to be a threatening email from James Brown”). On April 17, Friel directed both
parties to cease contact with one another. VTWP00073 (“If you could[,J please [do] not email,
text, call or have any contact with James. I have instructed James of the same.”). Friel also
invited Plaintiff to contact him if she received additional messages from James. Id.
Notwithstanding Friel’s directive, Plaintiff emailed Solomon the following day to request
“mediated peace talks” regarding the April 8 email that James sent from Solomon’s account,
VTWP00077, and made some kind of “appeal” to James (the contents of which do not appear in
the record), see VTWP00034 (“My April 18 appeal to James was the best I knew how to try to
[defuse] the threatening message that James had sent me.” (emphasis in original)). Also on April
18, Friel issued a non-traffic citation to Plaintiff for committing the crime of harassment, in
violation of 18 Pa. Cons. Stat. Ann. § 2709(a)(3), by “engaging] in a course of conduct by
emailing the victim [i.e., James Brown] continually when requested to stop having contact with

attached her many exhibits with an index, the documents themselves appear to have been altered
and annotated to include Plaintiffs explanation and interpretation.
3 All references to items beginning with the pre-fix “VTWP” are references to Exhibit C to
Defendants’ Motion, which, as noted, appears to be Defendants’ document production.
2

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 3 of 37

said victim.” Pl.’s Ex. 3B. The citation was designated as “Mail Out,” presumably indicating it
would be mailed to Plaintiff, and was filed with the district court on April 24, 2014, which issued
a summons. Id; see also Pl.’s Ex. 3C.
On April 21, 2014, Plaintiff filed a Protection From Abuse (PFA) petition against James,
citing, inter alia, a threat he allegedly made to Plaintiffs older brother on April 7 that he was
going to “bust down Blanche’s door” and the email James sent from Solomon’s email account on
April 8 as evidence in support of her reasonable fear of abuse. VTWP00110-128. On the strength
of Plaintiff s allegations, a temporary PFA order was issued to Plaintiff, directing James not to
“abuse, harass, stalk or threaten” Plaintiff in any place where she might be found and not to
“contact Plaintiff, or any other person protected under this order, by telephone or by any other
means, including through third persons.” Id.
On April 23, 2014, James went to the Valley Township police station and reported to
Friel that he had received a harassing letter from Plaintiff along with a copy of a PFA she filed
against him. VTWP00076.4 James stated Plaintiff had attempted to disguise the letter to make it
appear like it came from Ms. Solomon. According to Friel’s Complaint Report, Friel attempted
to call Plaintiff about the matter, but when he identified himself, she hung up the phone.
VTWP00076. Friel’s report further noted that he had previously told Plaintiff not to have
contact with James, as had another officer, and indicated Friel would be filing a second
harassment citation for Plaintiff in district court. Id. Friel did, in fact, file a second citation,
VTWP00017, but Plaintiff contends she never received it, see Pl.’s Ex. 4H (“Plaintiff first
4 Attached to Defendants’ Motion is a May 1, 2014, note written by James, in which he states
that he received “multiple emails and postmarked mail from . . . Blanche Brown dating from
April 4, 2014 through April 23, 2014.” VTWP00080. He states that the letters “have been
harassing and slanderous in nature, defaming my character and attempting to blackmail me.” Id.
Although this document was produced by Defendants, which suggests it was in their possession,
it is not entirely clear whether Friel was aware of it, or when it was received.
3

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 4 of 37

received this citation through ‘discovery’ and it comes 2 and a half years after Chief Friel
allegedly wrote it.”).
Over the course of the next few weeks, Plaintiff repeatedly contacted Friel regarding her
fear that James was trying to harm her. See VTWP00027-28 (April 28, 2014, Fax);
VTWP00024-26 (April 28, 2014, Email); VTWP00029-30 (April 30, 2014, Email);
VTWP00039-40 (May 1, 2014, Email); VTWP00038-39 (second May 1, 2014, Email);
VTWP00032 (third May 1, 2014, Email); VTWP00055 (May 2, 2014, Email). The
correspondence reflects her concerns that James cut her telephone lines and fired a gun near her
home, as well as her increasing anger with law enforcements’ efforts to protect her. For example,
she complained to Friel that the Valley Township Police, West Cain Township Police, and West
Sadsbury Township Police had each “re-victimized and re-traumatized” her. See VTWP00024.
In another email, she complained to Friel that he had “given James permission to come after
[her] with intent to kill [her].” VTWP00030. In yet another, she threatened to “do what ever is
necessary to protect [herself],” claiming James “pulled the wool over your eyes.” VTWP00038.
Plaintiff s accusations notwithstahdihgTFriel responded' by’reassuring^her-thafhts police
department took her concerns seriously and directed her to continue to utilize the legal system to
protect herself. See VTWP00024 (April 29, 2014, Email) (“I can assure you that our department
treats every person and complaint the same. It does not make a difference as to what economic or
ethnic classification a person is.”); VTWP00041 (May 1, 2014, Email) (“If you[r] hearing is
Monday[,] I suggest that you explain all to the Judge and ask for a PFA that is [permanent]”);
VTWP00033 (second May 1, 2014, Email); and VTWP00039 (third May 1, 2014, Email) (“I
spoke with James, and I am confident he is not going to do harm to you.”). Of particular concern

4

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 5 of 37

to this litigation, Friel advised Plaintiff that she could not contact James, having obtained a PFA
against him. Specifically, he wrote:
You cannot file a PFA against a person and then turn around and contact them. A
PFA is an order preventing contact between you and the party that you have
named on the PFA. If you file a PFA and then make contact with the party you
named on the PFA you are not obeying the ordering Judge who signed the PFA. A
PFA does not give you the right to contact the party you have named in the PFA.
Please feel free to contact my office. You are much welcomed to come to the
office and speak to me directly if you would like.
VTWP00024.
On May 5, 2014, Plaintiff appeared for a PFA hearing. Prior to the hearing, Plaintiff
requested that Friel escort her. See VTWP00055. He declined but indicated that he would contact
the sheriffs department to ensure that her safety concerns were addressed. See VTWP00054 (“I
cannot escort you to the court, but I will be calling the Sheriffs Dept, as to ensure your concerns
are addressed.”). After the hearing, Plaintiff emailed Friel to inform him that the court had
refused to make the initial PFA permanent and to express her belief that the PFA had been
dismissed as “an ‘ata-boy’ to James for having the stamina to ‘defend himself so vigorously.”
Id. Later that day, Plaintiff sent another email to Friel, complaining that James is a “classic
sociopath/psychopath” and that the “presiding judge seems to lower the standard for men of
color who are accused of abuse.” VTWP00056. A few days later, on May 10, Plaintiff contacted
Solomon via Facebook to complain that Solomon’s “Pollyanna notions nearly got [Plaintiff]
killed (twice!)” by James, and to accuse her of instigating James’s purported “plan to stalk”
Plaintiff. VTWP00062. The next day, Plaintiff sent an email to James threatening kill herself
because of his “abuse and betrayal,” stating that her “tormented soul” was “going to haunt” him
“to [his] grave.” VTWP00057 (emphasis omitted).

5

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 6 of 37

Between May 13, 2014, and June 3, 2014, Plaintiff contacted Friel on at least eight
separate occasions to report on the threat purportedly posed by James and express her frustration
about Friel’s failure to adequately respond, which Plaintiff claimed amounted to complicity in
the purported plan to kill her. See VTWP0068-69 (May 13, 2014, Fax); Pl.’s Ex. 2-1E (May 19,
2014, Email); VTWP00070-72 (May 21, 2014, Fax); VTWP00094-95 (May 27, 2014, Fax);
VTWP00096 (May 28, 2014, Fax);5 and VTWP00093 (June 15, 2014, Email). There is no
evidence in the record that Friel responded to Brown’s attacks.
On June 3, 2014, a summary trial was convened on the April 18 citation. The trial was
continued after Magisterial District Judge Grover Koon, the presiding officer, allegedly coerced
the Plaintiff into signing a mutual no-contact order by concealing the title of the document
(“Alternative Sentencing Contract”) with the sleeve of his robes. See Pl.’s Ex. 4G.6 On
September 10, 2014, both the April 18 and April 24 citations were withdrawn. See Defs.’ Ex. B,
at 3, 5. The record reflects that, at no time, was Plaintiff ever convicted, punished, or otherwise
restricted in any way by virtue of the citations. Id. In point of fact, it appears that Plaintiff never
even saw the second citation, see Pl.’s Ex. 4H (“Plaintiff first received this citation through
‘discovery’ and it comes 2 and a half years after Chief Friel allegedly wrote it.”).
After the citations were withdrawn, Plaintiff began contacting Friel and other Valley
Township officials to complain about Friel’s handling of her complaints about James. In one
email from October, 2014, Plaintiff complained to Valley Township officials that Friel “incited
violence” against her when he “knowingly supported and encouraged the actions of a known
5 The fax on this date, May 28, 2014, indicates that Plaintiff was following up on two phone calls
to Friel that she had placed earlier that day.
6 The document directs Plaintiff to have “no contact” or “third party contact,” presumably with
James. Opp’n Ex. 4G. The document does not appear to obligate Plaintiff to pay any fine or court
costs, and appears to have set September 10, 2014, as the expiration of the no contact agreement.
Id.
6

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 7 of 37

serial batterer with misogyny, rage and violence issues, mental illness and emotional
disturbances.” VTWP00098. In another note, Plaintiff told the Chief of the West Sadsbury
Township Police Department that Friel “supported, coddled[J encouraged and even advised
[Plaintiffs] harasser(s) to continue to take adverse actions against [her].” VTWP00011
(emphasis omitted). The fax goes so far as to accuse Friel of “instigating] the conflict and
encourage[ing] James A[.] Brown, a sociopath to attempt to kill [her].” Id. On October 20, 2014,
Plaintiff sent Friel the same fax three times in less than an hour, demanding, inter alia, that Friel
file charges against Solomon. See VTWP00001-9.
On April 4, 2016, Plaintiff commenced this action by filing a Complaint, which was later
amended. In her Amended Complaint, Plaintiff brings 25 causes of action against Friel, Judge
Koon, “Valley Township Manager/Administrator” in his or her official capacity, Valley
Township Police Department, and “Valley Township Governing Board/Supervisors. »7 On
January 24, 2017, Defendants moved for summary judgment. Plaintiff opposed the motion and
filed her own cross-motion for summary judgment, which the Court denied in a previous order.
The Court heard oral argument Defendants’ motion on April 26, 2017. The matter is now ripe for
decision.
DISCUSSION
A motion for summary judgment shall be granted “if the movant shows that there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a). A fact is “material” if it “might affect the outcome of the suit under
the governing law.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986). A “genuine”

7

On January 19, 2017, the Court dismissed Judge Koon from this action with prejudice. See
Order, Jan. 17, 2017, ECF No. 69.
7

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 8 of 37

dispute is one where “the evidence is such that a reasonable jury could return a verdict for the
[non-moving] party.” Id.
“[A] party seeking summary judgment always bears the initial responsibility of informing
the district court of the basis for its motion, and identifying those portions of the [record] which
j^believes demonstrate the absence of a genuine issue of material.fact.” Qelotex Cory, v. Catrett,
477 U.S. 317, 323 (1986) (citation and internal quotation marks omitted). To defeat summary
judgment, “the non-moving party must present more than a mere scintilla of evidence; there must
be evidence on which the jury could reasonably find for the [non-movant].” Burton v. Teleflex,
Inc., 707 F.3d 417, 425 (3d Cir. 2013) (alteration in original) (citation and internal quotation
marks omitted).
The Court begins its analysis with Brown’s claims under 42 U.S.C. § 1983,8 which
creates a statutory mechanism for private individuals to vindicate their federal constitutional
rights. See Albright v. Oliver, 510 U.S.C. 266, 271 (1994) (“Section 1983 is not itself a source of
substantive rights, but merely provides a method for vindicating federal rights elsewhere
conferred.” (internal quotation marks omitted)). To prevail on her claims, Plaintiff must produce
evidence that “a person acting under color of state law engaged in conduct that violated a right
protected by the Constitution or laws of the United States.” Morrow v. Balaski, 719 F.3d 160,

In pertinent part, 42 U.S.C. § 1983 states:
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding for redress ....
42 U.S.C. § 1983.
8

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 9 of 37

165-66 (3d Cir. 2013). In evaluating a § 1983 claim, a court must first “identify the exact
contours of the underlying right said to have been violated.” Id. at 166 (quoting Nicini v. Morra,
212 F.3d 798, 806 (3d Cir. 2000) (en banc)). The Court must then “determine whether the
plaintiff has alleged a deprivation of a constitutional right at all.” Id.
As discussed in greater detail below, Plaintiff asserts several claims for violations of her
rights. Specifically, she asserts claims for malicious prosecution in violation of her Fourth and
Fourteenth Amendment rights (Counts 1 and 8), a claim for a state created danger in violation of
her substantive due process rights under the Fourteenth Amendment (Count 2), a claim for the
use of fabricated evidence in violation of her Fourteenth Amendment due process rights (Count
15), and claims for intentional discrimination on the basis of her race and gender in violation of

Ub(
the Equal Protection Clause of the Fourteenth Amendment (Counts 7, 10, and 16). She also
asserts claims for violations of her constitutional rights by Valley Township and its police
department pursuant to Monell v. Department of Social Services, 436 U.S. 658 (1978), which
overlap with some of her non-Monell claims (Counts 11, 18, and 19). The Court addresses each
of these categories of claims in turn.
Counts 1 and 8 assert claims against Friel for malicious prosecution in violation of
Plaintiff s right to be free from unreasonable seizures under the Fourth Amendment and her right
to procedural due process under the Fourteenth Amendment.9 To prevail on the Fourth
Amendment claim, Plaintiff must show:
(1) The defendant initiated a criminal proceeding;
(2) The criminal proceeding ended in the plaintiffs favor;
9 Although the Amended Complaint does not consistently identify which claim is asserted
against which Defendant, it appears that most of Plaintiffs claims—with several exceptions—
are asserted against Friel. The exceptions appear to be Plaintiffs Monell claims, her claims for
which no factual averments are made, and the claims which were asserted against Judge Koon
exclusively.
9

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 10 of 37

(3) The defendant initiated the proceeding without probable cause;
(4) The defendant acted maliciously or for a purpose other than bringing the plaintiff to
justice; and
(5) The plaintiff suffered deprivation of liberty consistent with the concept of seizure as a
consequence of a legal proceeding.
Halsey v. Pfleffer, 750 F.3d 273, 296-97 (3d Cir. 2014). Defendants are entitled to summary
judgment on this claim (Count 1) because Plaintiff has failed to produce evidence sufficient to
create a genuine issue of material fact as to the fifth element.10
Although the concept of a “seizure” is flexible enough to include circumstances beyond
physical detention, see Gallo v. City of Phila., 161 F.3d 217, 222 (3d Cir. 1998), it is not so
broad as to encompass situations where the plaintiff was “only issued a summons” and was
“never arrested; . . . never posted bail; . . . [remained] free to travel; and ... did not have to
report to Pretrial Services,” DiBella v. Borough ofBeachwood, 407 F.3d 599, 603 (3d Cir. 2005).
Here, although a summons was issued for each of Friel’s harassment citations, Plaintiff has
adduced no evidence that she was ever arrested, required to post bail, limited in her travel, or
required to report to Pretrial Services. Indeed, at least as to the second harassment citation, it
appears that Plaintiff was not even aware the citation existed for some time after it was issued.
As a result, the Court finds that Plaintiff failed to establish a “deprivation of liberty consistent
with the concept of seizure.” Halsey, 750 F.3d at 297.
Even if Plaintiff could show that she suffered a deprivation of liberty consistent with the
concept of seizure as a result of Friel’s citations the Court would nevertheless grant summary
judgment because Plaintiff has failed to produce evidence that Friel acted “maliciously or for a

10 Plaintiff appears to assert this claim against Valley Township Police Department, the Valley
Township Manager, and Valley Township Board of Supervisors, under the doctrine of
respondeat superior. See Am. Compl. ^ 69. However, “a municipality cannot be held liable under
§ 1983 on a respondeat superior theory.” Monell, 436 U.S. at 691. Summary judgment is
therefore entered on this claim in favor of these Defendants.
10

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 11 of 37

purpose other than bringing [her] to justice.” Estate of Smith v. Marasco, 318 F.3d 497, 521 (3d
Cir. 2003). “Actual malice in the context of malicious prosecution is defined as either ill will in
the sense of spite, lack of belief by the actor himself in the propriety of the prosecution, or its use
for an extraneous improper purpose.” Henderson v. City of Phila., 853 F. Supp. 2d 514, 519
(E.D. Pa. 2012) (quoting Lee v. Mihalich, 847 F.2d 66, 70 (3d Cir. 1988)). Here, Plaintiff has
produced no evidence from which a rational factfinder could find Friel acted spitefully, did not
believe in the propriety of the harassment citations, or used his authority to initiate prosecution
for an improper purpose. Summary judgment is therefore warranted on Count 1.11

11 Count 1 of the Amended Complaint also asserts a claim for malicious prosecution under “PA
statute,” but does not identify the statute. To the extent Plaintiff invokes the Dragonetti Act,
Defendants are entitled to summary judgment because the statute applies to the misuse of civil
proceedings, and there is no evidence before the Court suggesting Defendants instituted such
proceedings against Plaintiff. See Schmidt v. Currie, 470 F. Supp. 2d 477, 480 (E.D. Pa. 2015)
(noting the Dragonetti Act “codified the common law cause of action for wrongful use of civil
proceedings.”).
Defendants are also entitled to summary judgment to the extent Plaintiff alleges a
Pennsylvania common law malicious prosecution claim. The tort of malicious prosecution
requires the plaintiff to establish the Defendant “instituted proceedings against the plaintiff 1)
without probable cause, 2) with malice, and 3) the proceedings . . . terminated in favor of the
plaintiff.” Kelley v. Gen. Teamsters, Chauffeurs & Helpers, Local Union 249, 544 A.2d 940, 941
(Pa. 1988); see also Boseman v. Upper Providence Twp., 680 F. App’x 65, 71 (3d Cir. 2017).
Here, Plaintiff has failed to establish a genuine issue of material fact as to the first
element of her claim: the absence of probable cause. “Probable cause is a reasonable ground of
suspicion supported by circumstances sufficient to warrant an ordinary prudent man in the same
situation in believing that the party is guilty of the offense.” Tomaskevitch v. Specialty Records
Co., Ill A.2d 30, 33 (Pa. Commw. Ct. 1998); see also Orsatti v. N.J. State Police, 71 F.3d 480,
483 (3d Cir. 1995) (noting probable cause is present “when the facts and circumstances within
the arresting officer’s knowledge are sufficient in themselves to warrant a reasonable person to
believe that an offense has been . . . committed by the person to be arrested.”). Given James and
Richelle Solomon’s complaints about Plaintiffs unwanted contact and Plaintiffs failure to
follow Friel’s directions, the Court finds that the police chief had probable cause to suspect that
Plaintiff twice committed the crime of harassment. See 18 Pa. Con. Stat. § 2709(a)(3) (“A person
commits the crime of harassment when, with intent to harass, annoy or alarm another, the person
. . . engages in a course of conduct or repeatedly commits acts which serve no legitimate
purpose.”). As a result, Defendants are entitled to summary judgment. See Tomaskevitch, 717
A.2d at 33 (“The showing of probable cause is an absolute defense to a charge of malicious
prosecution.”).
11

Case 2;16-cv-01819-JS Document 143 Filed 08/26/19 Page 12 of 37

The Court will also grant summary judgment in Defendants’ favor on Plaintiffs
Fourteenth Amendment malicious prosecution claim against Friel (Count 8).12 Although a claim
for malicious prosecution based on police conduct that violates the procedural component of the
Fourteenth Amendment Due Process Claims is cognizable in this Circuit, see Torres v.
McLaughlin, 163 F.3d 169, 173 (3d Cir. 1998), the contours of such a claim remain ill-defined.
See Braunstein v. Paws Across Pittsburgh, No. 18-788, 2019 WL 1458236 at *5 (W.D. Pa. Apr.
2, 2019); McCormack v. Livergood, 353 F. Supp. 3d 357, 364 (M.D. Pa. 2018); Thomas, 290 F.
Supp. 3d at 381. In Washington v. Henshaw, a non-precedential opinion, the Third Circuit
affirmed the grant of judgment on the pleadings on a Fourteenth Amendment malicious
prosecution claim where the plaintiff “merely recite[d] the elements of a procedural due process
claim without explaining what process he was owed and how that process was denied.” 552 F.
App’x 169, 174 (3d Cir. 2014). Although mindful of Washington's non-precedential status, the
Court finds summary judgment is warranted here for the same reason. The title of Count 8
references the Fourteenth Amendment, but neither the allegations in the body of Count 8, nor
Brown’s Opposition or Reply briefs, explain what process she was owed and how that process
was denied. As a result, the Court will grant Defendants summary judgment on this claim as
well.
In Count 2, Plaintiff seeks to recover against Friel for a violation of her Fourteenth
Amendment substantive due process right under a state created danger theory. The gravamen of
Count 2 is that Friel put Plaintiffs life in danger by communicating with James Brown and filing
the harassment citations against her.
12 A malicious prosecution claim cannot be predicated on a violation of the Fourteenth
Amendment’s right to substantive due process. See Albright, 510 U.S. at 274 (“We do hold that
substantive due process, with its scarce and open-ended guideposts can afford [a plaintiff
alleging malicious prosecution in violation of the Fourteenth Amendment] no relief.”).
12

Case 2;16-cv-01819-JS Document 143 Filed 08/26/19 Page 13 of 37

The Due Process Clause of the Fourteenth Amendment does not generally impose any
affirmative obligation on government actors to protect life, liberty or property from harm by
private actors. See DeShaney v. Winnebago Cty. Soc. Servs. Dep’t, 489 U.S. 189, 195-96 (1989).
Nevertheless, the Third Circuit allows an exception to this rule where a “state-created danger” is
involved, i.e. “when the state acts in a way that makes a person substantially more vulnerable to
injury from another source than he or she would have been in the absence of state intervention.”
Scheiber v. City ofPhila., 320 F.3d 409, 416 (3d Cir 2003). Defendants argue they are entitled to
summary judgment because Plaintiff has failed to produce evidence Friel affirmatively misused
his authority in a way that created a danger to Plaintiff that was greater than if Friel had not acted
at all.13
To prevail on a state created danger theory, a plaintiff must establish:
(1)
(2)
(3)

(4)

the harm ultimately caused was foreseeable and fairly direct;
a state actor acted with a degree of culpability that shocks the conscience;
a relationship between the state and the plaintiff existed such that the
plaintiff was a foreseeable victim of the defendant’s acts, or a member of a
discrete class of persons subjected to the potential harm brought about by
the state’s actions, as opposed to a member of the public in general; and
a state actor affirmatively used his or her authority in a way that created a
danger to the citizen or that rendered the citizen more vulnerable to danger
than had the state not acted at all.

Bright v. Westmoreland Cty., 443 F.3d 276, 281 (3d Cir. 2006) (internal quotations omitted).

13 The Third Circuit recognizes a related, but distinct, exception to Deshaney for circumstances
in which the government fails to protect a citizen where there is a custodial relationship between
the plaintiff and the government-defendant. See Sanford v. Stiles, 456 F.3d 298, 304 n.5 (3d Cir.
2006). However, Brown does not purport to rely on this “special relationship” theory. The most
natural reading of the Amended Complaint is that Brown is proceeding on a “state-created
danger” theory, which does not require detention. See Phillips v. Cty. of Armstrong, 515 F.3d
224, 242 (3d Cir. 2008) (“Finally, the state-created danger analysis requires that some
relationship existed between the state and the plaintiff. . . To adequately allege such a
relationship, a plaintiff need not plead facts that show the same ‘special relationship’ basis for
constitutional liability.”).
13

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 14 of 37

The Court will grant summary judgment in Defendants’ favor because Plaintiff has failed
to produce evidence from which a reasonable jury could find in her favor on the second and
fourth elements of her claim. As to the second element, there is no evidence from which a jury
could find Friel acted with a degree of culpability that would shock the conscience. In this
Circuit, “[t]he level of culpability required to shock the conscience increases as the time state
actors have to deliberate decreases.” Sanford, 456 F.3d at 309. “In a hyper[-]pressurized
environment, an intent to cause harm is usually required. On the other hand, in cases where
deliberation is possible and officials have the time to make unhurried judgments, deliberate
indifference is sufficient.” Id. In situations that fall between these two poles, i.e., “situations in
which there is some urgency and only hurried deliberation is practical,” the Court must inquire
“whether the officer consciously disregarded a great risk of harm.” Id. at 310. In all cases,
negligence is “not enough” to shock the conscious. Id. at 311.
Given that the events at issue in Plaintiffs Amended Complaint took place over a period
of days and weeks, Friel had time to consider the appropriate course of action under the
circumstances, and thus the “deliberate indifference” standard applies. See Phillips, 515 F.3d at
241 (applying the deliberate indifference standard where defendants “had sufficient time to
proceed deliberately”). To establish “deliberate indifference” in the state-created danger context,
a plaintiff must produce evidence showing the defendant consciously disregarded a substantial
risk of serious harm. See Vargas v. City of Phila., 783 F.3d 962, 973 (3d Cir. 2015) (quoting
Ziccardi v. City of Phila., 288 F.3d 57, 66 (3d Cir. 2002)); see also Morse v. Lower Merion Sch.
Dist., 132 F.3d 902, 911 (3d Cir. 1997) (“[T]he state’s actions must evince a willingness to
ignore a foreseeable danger or risk.”).

14

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 15 of 37

Even assuming James posed a substantial risk of serious harm to Plaintiff, the evidence in
the record does not support a reasonable inference that Friel was deliberately indifferent to
Plaintiffs safety. Notwithstanding that Friel may not have done precisely as Plaintiff wished, the
record reflects he did not ignore Plaintiffs many complaints. For example, when she expressed
her fear of James prior to attending a PFA hearing, Friel (1) directed Plaintiff to take advantage
of the legal mechanisms available to her, see VTWP00041 (“If you[r] hearing is Mondayf,] I
suggest that you explain all to the Judge and ask for a PFA that is [permanent]”); (2) called the
Sheriffs Department to alert them of Plaintiff s concerns, see VTWP00054 (“I cannot escort you
to the court, but I will be calling the Sheriffs Dept, as to ensure your concerns are addressed.”);
and (3) contacted James on Plaintiffs behalf to seek reassurance that Plaintiff would be safe at
the hearing, VTWP00039 (“I spoke with James, and I am confident he is not going to do harm to
you.”). These are not the only examples of Friel’s sensitivity to James’s possible threat. When
Plaintiff complained James was violent based on his purported history of assaulting other
women, Friel requested that Plaintiff provide additional information for follow-up investigation.
See Opp’n Ex. 4-B (“I . . . highly suggest that if you have information pertaining to assaults
carried out by James Brown that you forward that information to the proper authorities and make
them aware.”); Am. Compl. Ex. 8C (“Could you kindly forward names to me in reference to the
assaults that you alleged to have taken place.”). And, when Plaintiff indicated that James had
purportedly been violent toward Richelle Solomon, Friel, again, promised to conduct follow-up
investigation. Opp’n Ex. 2-2E (“I will be calling the West Cain Police Department to check [on]
their contact with James as I want to know the story of what happened out in West Cain.”).
Although Plaintiff may have been dissatisfied with the extent of Friel’s responses, her
unhappiness is not a basis from which a rational factfinder could find deliberate indifference. In

15

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 16 of 37

the absence of evidence Friel consciously disregarded a substantial risk of harm, the Court finds
no genuine issue of material fact as to the second element of Plaintiffs state created danger
claim. Therefore, summary judgment will issue in Defendants’ favor.
Defendants are also entitled to summary judgment on the claim because Plaintiff has
failed to produce evidence Friel (or any other Defendant) took an affirmative act which created a
danger to her or rendered her more vulnerable to danger than had he (or any other Defendant) not
acted at all. To satisfy this fourth-element, Plaintiff must show that the state used its authority in
an affirmative way to place her in danger. See Bright, 443 F.3d at 282 (noting the Third Circuit
has “never found a state-created danger claim to be meritorious without an allegation and
subsequent showing that state authority was affirmatively exercised”). When reviewing the
evidence, the Court must consider “whether a state actor’s behavior constituted an affirmative
act, and if so, whether the affirmative act created a foreseeable opportunity for harm.” Id. at 283
n.7. The failure to protect an individual is not an actionable “affirmative act” for purposes of a
state created danger claim. See Sanford, 456 F.3d at 312.
Here, Brown has failed to proffer evidence from which a jury could find that Friel
undertook an affirmative act which put Plaintiff at foreseeable risk of harm. In her Sur-Reply,
Plaintiff identifies what she claims are sixteen separate affirmative acts by Friel that put her at
some kind of risk. However, her allegations do not withstand scrutiny. Many of these items refer
to Friel’s failure to act, which cannot support Plaintiffs claim. See Sanford, 456 F.3d at 312. The
balance of the items on the list are conclusory allegations disconnected from any evidence in the
record. For example, Plaintiff accuses Friel—without evidence—of using his authority for the
purpose of “ENTRAPPING Ms. Brown,” “USING THE THREAT of criminal charges as
leverage to PERSUADE/INTIMDATE Ms. Brown,” “SUBBORNING . . . perjury,” “INVITING

16

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 17 of 37

further harassment against Ms. Brown,” “BROWBEATING and INTIMIDATING Ms. Brown,”
and “ESTABLISHING his own home-grown laws and then MANUFACTURING a crime for the
purpose of prosecuting Ms. Brown.” Sur Reply 12-13 (capitalization in original). At this stage, it
is the evidence—not the allegations—that matters. Because Plaintiff has failed to produce
evidence of an affirmative act by Friel which put her at foreseeable risk of harm, the Court will
grant summary judgment to Defendants. Because Plaintiff has failed to establish genuine issue of
material fact as to Friel’s level of culpability and any affirmative act which put Plaintiff at a
foreseeable risk of harm, the Court will grant summary judgment on Plaintiffs state created
danger claim (Count 2).14
In Count 5, Plaintiff brings a § 1983 claim against Friel for violation of her right to
procedural due process based on his alleged fabrication of evidence. To prevail, a plaintiff must
show “reasonable likelihood that, absent that fabricated evidence, the [plaintiff] would not have
been criminally charged. M

15

Black, 835 F.3d at 371. This standard presupposes the existence of

fabricated evidence, which, according to the Third Circuit, must be more than simply incorrect or
disputed evidence. Halsey, 750 F.3d at 295; see also, Black, 835 F.3d at 372 (describing the

14 Because the Court’s determination as to the second and fourth elements of the state-created
danger test are dispositive, the Court need not address whether Plaintiff has satisfied the first and
third elements of the claim.
13 Under Third Circuit precedent a defendant need not have been convicted to bring a stand-alone
fabrication of evidence claim. See Black v. Montgomery Cty835 F.3d 358, 371 (3d Cir. 2016)
(“[A]n acquitted criminal defendant may have a stand-alone fabricated evidence claim against
state actors under the due process clause of the Fourteenth Amendment.”). Although the Third
Circuit does not appear to have considered the issue, at least one other court in this district has
held that dispositions other than a conviction or acquittal can give rise to a stand-alone claim for
a due process violation based on fabricated evidence, see Klein v. Madison, No. 17-4507, 2019
WL 1558471, at *23 n.32 (E.D. Pa. Apr. 10, 2019) (finding that the plaintiff could bring a §
1983 due process claim based on fabricated evidence even though her criminal case resulted in
participation in the Accelerated Rehabilitative Disposition program and did not result in either a
conviction or acquittal). The Court assumes without deciding that withdrawn charges could
provide an adequate basis for a falsification of evidence claim.
17

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 18 of 37

standard for evidence to be' considered fabricated as a “notable bar”). Rather, there must be
“persuasive evidence supporting a conclusion that the proponents of the evidence are aware that
the evidence is incorrect or that the evidence is offered in bad faith.” Black, 835 F.3d at 372
(quoting Halsey, 750 F.3d at 295).
Here, Plaintiffs claim is based on the two criminal citations issued to her for harassment.
Each of the citations contains a description of the nature of the offense. See Defs.’ Mot. Summ J.
Ex. C, at 17-18. The April 18, 2014, citation describes the “nature of the offense” as: “THE
ABOVE DEF. DID EN-GAGE IN A COURSE OF CONDUCT BY EMAILING THE VICTIM
CONTINUALLY WHEN REQUESTED TO STOP HAVING CONTACT WITH SAID
VICTIM.” Id. at 17 (emphasis in original). The second citation, which was issued a few days
later, describes the offense conduct similarly: “THE ABOVE DEF. DID ENGAGE IN A
COURSE OF CONDUCT BY MAILING THE VICTIM WHEN REQUESTED TO HAVE NO
CONTACT WITH THE VICTIM. ACT DID ALARM THE VICTIM.” Id. at 18 (emphasis in
original). Although Plaintiff may disagree with Friel’s characterization of her communications as
harassing, she does not dispute that she authored them, nor has she produced any persuasive
evidence suggesting that Friel, or any other Defendant, manufactured them. As a result, she has
failed to establish a genuine issue of material fact as to the existence of fabricated evidence and
Defendants are, therefore, entitled to summary judgment on this claim.
Counts 7, 10, and 16 allege § 1983 claims for deprivation of Plaintiffs Fourteenth
Amendment right to “equal protection of the laws” based on her race and gender.16 See U.S.
Const. Amend. XIV § 1. Plaintiff s theory is that Friel deprived her of equal protection of the

16 As noted elsewhere, Plaintiff does not consistently specify the particular Defendants against
whom she is asserting a claim. Here, it appears that Count 7 is directed against Friel and Counts
10 and 16 are asserted against all Defendants.
18

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 19 of 37

laws by citing her, an African American woman, for harassment, but not James Brown, an
African American man, or Richelle Solomon, a white woman. The Court construes these claims
as advancing selective enforcement theories.
A plaintiff claiming selective enforcement must demonstrate “(1) that [she] was treated
differently from other similarly situated individuals, and (2) ‘that this selective treatment was
based on an unjustifiable standard, such as race, or religion, or some other arbitrary factor.’”
Dique v. N.J. State Police, 603 F.3d 181, 184 (3d Cir. 2010) (quoting Hill v. City of Scranton,
411 F.3d 118, 125 (3d Cir. 2005)). As to the first element, “[p]ersons are similarly situated under
the Equal Protection Clause when they are alike ‘in all relevant respects.’” Startzell v. City of
Phila., 533 F.3d 183, 203 (3d Cir. 2008) (quoting Nordlinger v. Hahn, 505 U.S. 1, 10 (1992)).
As to the second element, a plaintiff “must provide evidence of discriminatory purpose, not mere
unequal treatment or adverse effect.” Jewish Home of E. Pa. v. Ctrs. for Medicare & Medicaid
Servs., 693 F.3d 359, 363 (3d Cir. 2012). “A federal constitutional violation does not exist
merely because of the ‘exercise of some selectivity in enforcement.’” Karns v. Shanahan, 879
F.3d 504, 521 (3d Cir. 2018) (quoting Oyler v. Boles, 368 U.S 448, 456 (1962)). Rather, a claim
for “intentional discrimination requires evidence of a malicious bad faith intent to injure.” Greco
v. Senchak, 25 F. Supp. 3d 512, 518 (M.D. Pa. 2014).
The Court focuses on the second element of the Equal Protection Clause analysis because
even if Plaintiff could show she was similarly situated to James or Solomon (which seems
unlikely based on the record before the Court), there is no evidence to support an inference that
Plaintiffs race or gender motivated Friel’s decision to cite her. The totality of the relevant
evidence is (1) the fact Friel cited Plaintiff and not James or Solomon, (2) Friel’s report
regarding James’s in-person complaint, (3) the text of the two citations, and (4) Friel’s responses

19

Case 2;16-cv-01819-JS Document 143 Filed 08/26/19 Page 20 of 37

to Plaintiffs numerous communications to him. None of these documents, even when construed
in the light most favorable to Plaintiff, supports an inference that Friel was biased against her
because of her race or gender. Indeed, the record shows that Friel bore the brunt of Plaintiffs
steady stream of often-vitriolic emails, faxes, and telephone calls, without responding in-kind
(much less in any way suggestive of impermissible bias). As a result, the Court concludes no
rational jury could find in Plaintiffs favor on the second element of her selective enforcement
claim. Summary judgment will, therefore, issue in Defendants’ favor on Counts 7, 10, and 16.
Plaintiff suggests she “could” bring equal protection claims based on the existence of a
facially discriminatory policy or a “class of one” theory. To the extent she does advance such
theories, Defendants are entitled to summary judgment.
As to the first theory, Plaintiffs claims would survive summary judgment if she could
point to a policy that, by its terms, singles out African-Americans or women for different
treatment. See Hassan v. City ofNew York, 804 F.3d 277, 294 (3d Cir. 2015). She theorizes that
“Police Friel’s established an unwritten policy and practice of accusing and prosecuting women
of color Protection From Abuse petitioners of in Friel’s and Koon’s words ‘violating their own
PFA Order’—-when in Fact PA Act 23 does not have any such language or provisions that
penalize the Abuse Victim.” Opp’n 23-24. However, Plaintiff cites no evidence in the record to
support the existence of this policy (other than her say-so), and such conjecture does not entitle
her to present her theory to a jury.
Defendants are also entitled to summary judgment to the extent Plaintiff asserts a class of
one equal protection theory, which allows a plaintiff to recover where she “alleges that [she] has
been intentionally treated differently from others similarly situated and that there is no rational
basis for the difference in treatment.” Hill v. Borough of Kutztown, 455 F.3d 225, 239 (3d Cir.

20

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 21 of 37

2006) (quoting Village of Willowbrook v. Olech, 528 U.S. 562, 564 (2000)); see also Phillips,
515 F.3d at 243. The primary difference between a traditional equal protection claim and a “class
of one” claim is that a “class of one” plaintiff need not establish membership in a protected class.
Rather, a plaintiff must produce evidence of three elements: “(1) the defendant treated [her]
differently from others similarly situated, (2) the defendant did so intentionally, and (3) there was
no rational basis for the difference in treatment.” Hill, 455 F.3d at 239. “A ‘class of one claim,
like any equal protection claim evaluated under rational basis review, cannot succeed ‘if there is
any reasonably conceivable state of facts that could provide a rational basis for the
classification.’” Price v. City ofPhila., 239 F. Supp. 3d 876, 900 (E.D. Pa. 2017) (quoting Heller
v. Doe, 509 U.S. 312,320 (1993)). In order to sustain claims of intentional discrimination in this
context, a plaintiff must produce evidence “the decisionmaker selected or reaffirmed a particular
course of action at least in part because of, not merely in spite of, its adverse effects.” Jewish
Home, 693 F.3d at 363.
Defendants are entitled to summary judgment on this theory for the same reason they are
entitled to summary judgment on Plaintiffs selective enforcement theory. Even assuming the
Court could consider Plaintiff to be similarly situated to James Brown and Richelle Solomon
(which seems unlikely, given that it appears to have been Plaintiff who, in the aftermath of
Friel’s no contact order, contacted James and Solomon), there is no evidence that Friel cited
Plaintiff with a malicious intent. As noted above, none of the evidence of Friel’s conduct
supports an inference that Friel singled out Plaintiff for disparate treatment. As a result, the
Defendants are entitled to summary judgment to the extent Plaintiff advances a class of one
theory.

21

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 22 of 37

In sum, the Court will grant the Defendants’ motion as to Counts 7, 10, and 16 because
Plaintiff has failed to produce evidence from which a jury could find in her favor and Defendants
are entitled to judgment as a matter of law.
Count 11 of the Amended Complaint asserts a § 1983 claim against Friel based on a
supervisory liability theory.17 Plaintiff complains that Friel “implicitly or explicitly
established/adopted and implemented careless and reckless internal policies, customs, or
practices.” Am. Compl. | 108. She identifies three alleged policies: (1) responding to stalking
situations “with dismissiveness and threats—as a deterrent to victims,” (2) “railroading and
maliciously prosecuting outsiders” to make money for the township, and (3) “protecting and
covering up crimes committed by old friends and [Tjownship residents when the crimes are
committed against non-[T]ownship residents.” Id.
The Third Circuit recognizes several theories of supervisor liability under § 1983, only
two of which are pertinent to Count 11. First, “[individual defendants who are policymakers
may be liable under § 1983 if it is shown that such defendants, ‘with deliberate indifference to
the consequences, established and maintained a policy, practice or custom which directly caused
[the] constitutional harm.’” AM. ex rel J.M.K v. Luzerne Cty. Juvenile Det. Ctr., 372 F.3d 572,
586 (3d Cir. 2004) (quoting Stoneking v. Bradford Area Sch. Dist., 882 F.3d 720, 725 (3d Cir.
1989)). And second, a supervisor may be liable “if he or she participated in violating the
plaintiff’s rights, directed others to violate them, or, as the person in charge, had knowledge of
and acquiesced in his subordinates’ violations.” Id. (citing Baker v. Monroe Twp., 50 F.3d 1186,
1190-91 (3d Cir. 1995)). In addition, for supervisors and policymakers to be liable, there must be

17 Count 11 also includes allegations against Judge Koon. Because Judge Koon was previously
dismissed from this case with prejudice, the Court need not address the allegations pertaining to
him. See Order, Jan. 19, 2017, ECF No. 69.
22

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 23 of 37

“a causal connection between the supervisor’s actions and the violation of plaintiffs rights.”
Okocci v. Klein, 270 F. Supp. 2d 603, 612 (E.D. Pa. 2003).
Plaintiff has not .produced evidence to support liability under either of these theories. As
an initial matter, there is no evidence in the record from which a rational factfinder could
conclude Friel established, maintained, or even acquiesced to, a policy, practice, or custom
which directly impinged on Plaintiffs constitutional rights. Although the Amended Complaint
and Plaintiffs various memoranda include a number of allegations of purported misconduct by
Friel, the allegations lack sufficient evidentiary support to survive scrutiny under Rule 56.
Having reviewed the record in-depth and considered it in light most favorable to Plaintiff, the
Court concludes that no rational factfinder could evaluate the evidence proffered by Plaintiff and
find Friel maintained a policy or custom of mistreating victims of stalking, generating revenue
by prosecuting non-residents, or covering up for his friends. Moreover, there is no evidence Friel
participated in violations of Plaintiffs rights, directed others to violate her rights, or acquiesced
in the violation of her rights. As a result, Defendants are entitled to summary judgment on Count
11.
Counts 12 and 17 assert claims against all Defendants for conspiracy to violate 42 U.S.C.
§ 1983, and conspiracies in violation of 42 U.S.C. § 1985(2) and (3).18 Conspiracies under §
1983 and § 1985(3) are distinct causes of action, but each requires a successful plaintiff to
establish an underlying constitutional injury. See Lake v. Arnold, 112 F.3d 682, 685 (3d Cir.
1997) (noting the fourth element of a claim under 42 U.S.C. § 1985(3) is “an injury to person or
property or the deprivation of any right or privilege of a citizen of the United States”); Klein v.
18 Count 17 also identifies 18 U.S.C. § 242 as a possible basis for her claim. This statute
establishes criminal liability for a deprivation of rights under color of law but does not give rise
to a civil cause of action. See Kennedy v. Equifax, Inc., No. 18-214, 2019 WL 1382649, at *5
(E.D. Pa. Mar. 27, 2019). As a result, the Court need not address whether it applies.
23

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 24 of 37

Madison, 374 F. Supp. 3d 389, 421 (E.D. Pa. Apr. 10, 2019) (“The plaintiff also must establish
the ‘predicate’ constitutional tort to succeed on a claim for civil conspiracy [to violate 42 U.S.C.
§ 1983].”) (quoting Glass v. City of Phila., 455 F. Supp.- 2d 302, 359-360 (E.D. Pa. 2006)). For
the reasons discussed in greater detail above, Plaintiff has failed to adduce sufficient evidence
from which a rational jury could find that she suffered such a constitutional injury, i.e. a
deprivation of her rights (or an injury to her person or property). Absent such an injury, Plaintiff
cannot recover for a conspiracy to violate § 1983 or for a violation of § 1985(3). Summary
judgment will be granted in Defendants’ favor on Counts 12 and 17 insofar as they allege
conspiracy claims under § 1983 or § 1985(3).
The Court will also graftt summary judgment on Counts 12 and 17 to the extent they rely
on 42 U.S.C. § 1985(2). This Reconstruction Era statute prohibits, inter alia, conspiracies “for
the purpose of impeding, hindering, obstructing, or defeating, in any manner, the due course of
justice in any State or Territory, with intent to deny to any citizen the equal protection of the
laws. ”19 In this Circuit, to prevail on a claim under this provision of § 1985(2), a plaintiff must
show the conspiracy was motivated by “class-based, invidiously discriminatory animus.” Brawer
v. Horowitz, 535 F.2d 830, 840 (3d Cir. 1976) (affirming dismissal of claim under 42 U.S.C. §
1985(2) where the complaint failed to allege defendants’

“class-based, invidiously

discriminatory animus”); see also Martinez v. United States, No. 17-3264, 2018 WL 5313181, at
19 42 U.S.C. § 1985(2) has two clauses. The first clause prohibits conspiracies to obstruct justice
in “any court of the United States.” 42 U.S.C. § 1985(2). Because there is no federal proceeding
(other than this one) to which the alleged conduct in this case pertains, the first clause is
inapplicable. See Fetzer v. Cambria County Human Services, 384 F. Supp. 2d 813, 817 (W.D.
Pa. 2005) (“[T]he federal nexus to causes of action based upon the first portion of § 1985(2) . . .
is a connection to proceedings in federal court.”) (citing Brawer v. Horowitz, 535 F.2d 830, 840
(3d Cir. 1976)). The Court therefore focuses on the second clause of § 1985(2), which “aims at
proscribing conspiracies that interfere with the administration of justice in state courts.” Breslin
v. Brainard, No. 01-7269, 2002 WL 3153425, at *9 (E.D. Pa. Nov. 1,2002).
24

Case 2;16-cv-01819-JS Document 143 Filed 08/26/19 Page 25 of 37

*4 (E.D. Pa. Oct. 26, 2018) (“Conspiracy claims of the second [clause of § 1985(2)] require an
allegation of racial or class-based invidiously discriminatory animus.”). To make this showing, a
plaintiff must show “both that the conspiracy was motivated by discriminatory animus against an
identifiable class and that the discrimination against the identifiable class was invidious.” Farber
v. City of Paterson, 440 F.3d 131, 135 (3d Cir. 2006).20
Even assuming Plaintiff could show the other elements required to state a successful §
1985(2) claim, her cause of action must fail because she has not established a genuine issue of
fact as to the Defendants’ purported discriminatory animus.

As the Court has concluded

elsewhere, there is insufficient evidence—direct or circumstantial—from which a rational
factfinder could conclude that whatever actions Friel, Judge Koon, or any of the other
Defendants took against Plaintiff were motivated by her gender or race.21 Perhaps the closest
Plaintiff comes is her argument that Defendants imposed “barriers” to “a fair process” by
intentionally failing to notify her of the second harassment citation. See Opp’n 30. Even
assuming this failure could be construed as a constitutional injury, Plaintiff has proffered no
evidence suggesting that Defendants were motivated to cause whatever harm may have resulted

20 The Third Circuit’s decision in Farber addressed the showing necessary to establish “classbased invidiously discriminatory animus” for the purpose of a claim under § 1985(3). 440 F.3d at
135. However, the showing is the same under§ 1985(2) and 1985(3). See Tarapchack v.
Lackawanna County, 173 F. Supp. 3d 57, 72 (M.D. Pa. 2016) (“To the extent [plaintiff] is suing
Defendants under § 1985(2) or (3), her claims are dismissed because both claims require plaintiff
allege ‘some racial or perhaps otherwise class-based, invidiously discriminatory animus.’”
(quoting Farber, 440 F.3d at 135)); Walker v. City ofPhila., No. 09-2071, 2009 WL 3103733, at
*1 (E.D. Pa. Sept. 18, 2009) (“To state a claim under § 1985(2) (second clause) or (3), a plaintiff
must allege that the defendants’ actions were motivated by racially discriminatory animus.”).
21 Plaintiff belongs to two classes of individuals who might bring a § 1985 claim: women and
African Americans. See Farber, 440 F.3d at 138 (noting that, while the Supreme Court “has
never found that a criterion other than race can serve as the basis for a qualifying class [under §
1985] .. . [the Third Circuit has] held that victims of discriminatory animus directed at women . .
. may state a claim” (internal citations omitted)).
25

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 26 of 37

(of which there is also insufficient evidence to withstand Defendants’ motion) by her race or
gender. The mere fact that Plaintiff may belong to one or more protected classes and alleges
(without evidentiary support) to have suffered a constitutional injury does not, without more,
create the requisite causal link between that alleged injury and her race or gender. Thus, the
Court will enter summary judgment in Defendants’ favor. See Burgos v. Canino, 641 F. Supp. 2d
443, 458 (E.D. Pa. 2009) (granting summary judgment and noting “[plaintiff] cannot presume to
know what defendants were thinking and he has no evidence to support his allegation that
defendants were motivated by race or class to deprive of the equal protection of the law.”); see
also Pitak v. Bell Atlantic Network Servs., Inc., 928 F. Supp. 1354, 1369 (D. N.J. 1996) (granting
summary judgment on a § 1985 claim where plaintiffs “provided nothing more than conclusory
allegations”). Thus, judgment will be entered in Defendants favor on Counts 12 and 17.
The Court will also grant summary judgment in favor of Defendants on Counts 18 and 19
which allege violations of 42 U.S.C. § 1983 by Valley Township for failing to supervise and
train Judge Koon and Friel. Under Monell v. Department of Social Services, 436 U.S. 658, 69091 (1978) a municipality may be held liable for a constitutional violation resulting from “acts
implementing an official policy, practice or custom of the municipality.” To establish a Monell, a
plaintiff must show: “(1) she possessed a constitutional right of which she was deprived; (2) the
municipality had a policy; (3) the policy ‘amounted to deliberate indifference’ to the plaintiffs
constitutional right; and (4) the policy was the ‘moving force behind the constitutional
violation.’” Vargas v. City ofPhila., 783 F.3d 962, 974 (3d Cir. 2015) (quoting City of Canton v.
Harris, 489 U.S. 378, 389-91 (1989)).
Plaintiffs Monell claims fail because she has not produced evidence from which a
reasonable jury could find that her constitutional rights were violated, much less that the moving

26

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 27 of 37

force behind any such violation was a policy, practice, or custom of Valley Township (i.e., its
failure to train its police or magisterial district judges). The evidence before the Court establishes
the existence of a dispute between Plaintiff and James that ultimately involved Friel. Presented
with competing claims of harassment, the evidence shows Friel directed both combatants to
cease contact. Yet, Plaintiff disobeyed. As a result, she was cited. At a hearing before Judge
Koon, Plaintiff then agreed not to have any further contact with James, and the harassment
citations Friel issued were withdrawn. Plaintiff was never arrested, found guilty, or otherwise
restricted in any way for her failure to follow police orders—in fact, Plaintiff does not appear to
have even been made aware of the second citation for some time after it was issued and
withdrawn. On this record, the Court discerns no basis from which a rational jury could find she
suffered a violation of her constitutional rights.22 As a result, the Defendants are entitled to
summary judgment in their favor on Counts 18 and 19.
Having determined that Defendants are entitled to summary judgment on each of
Plaintiffs claims arising under federal law, 23 the Court turns to Plaintiffs remaining state law

22 Even assuming Plaintiff could show a deprivation of her constitutional rights, the Court would
also grant summary judgment in Defendants’ favor because Plaintiff has not produced any
evidence showing that the purported failure to train Friel or Judge Koon “reflects a ‘deliberate’
or ‘conscious’ choice”’ by Valley Township, as is required to sustain her claim. City of Canton v.
Harris, 489 U.S. 378, 389 (1989).
23 Counts 14 and 15 allege violations of the “Civil Rights Act” and Civil Rights Act of 1964,
without identifying any facts or law which support her right to relief, and Plaintiff does address
either claim in her Opposition to Defendants’ Motion for Summary Judgment or her Sur-Reply.
As a result, the Court finds Plaintiff has abandoned these claims, and will grant summary
judgment in Defendants’ favor. See Manning v. WPX Energy Appalachia, LLC, No. 12-646,
2015 WL 3972609, at *5 (E.D. Pa. June 30, 2015) (“A plaintiff abandons a claim when they fail
to respond to defendants’ arguments for summary judgment as to that claim.”).
Moreover, this Court, having dismissed the Amended Complaint as it pertains to Judge
Koon, need not address those counts which concern his alleged role in the events at issue
(Counts 3, 6, 9, 11, 18, and 21).
27

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 28 of 37

claims.24 Because Plaintiff has failed to support any of these claims with evidence sufficient to
create a genuine issue of material fact and Defendants are entitled to judgment as a matter of

24 On March 29, 2017, after the close of discovery and briefing on Defendants’ summary
judgment motion, Plaintiff moved for leave to file an amended complaint to clarify that Counts 5
and 6, both of which allege due process violations, assert substantive and procedural due process
claims, and add a First Amendment retaliation claim, a theory which Plaintiff contends “more
closely reflects the supporting evidence and allegations throughout her pleadings.” Mot. 1, Mar.
29, 2017, ECF No. 109. The Court denied the motion on September 28, 2018, without
explanation, see Order, Sept. 28, 2018, ECF No. 132, and writes now to briefly explain the basis
for its decision.
Generally, a Court is obligated to provide leave to amend “when justice so requires.” Fed.
R. Civ. P. 15(a)(2). Amendment may be denied, however, where it would be “inequitable or
futile.” Phillips v. County of Allegheny, 515 F.3d 224, 245 (3d Cir. 2008). Aside from the fact
that Plaintiffs motion sought to add at least one new claim after the close of discovery and the
ripening of Defendants’ summary judgment motion (which suggests amendment would be
inequitable), amendment here would have been futile. While the futility analysis under Rule 15
generally turns on whether the proposed amendment would be sufficient to withstand a motion to
dismiss, see City of Cambridge Ret. Sys. v. Altisource Asset Mgmt. Corp., 908 F.3d 872, 878 (3d
Cir. 2018) (“Leave to amend is properly denied if the amendment would be futile, i.e., if the
proposed complaint could not withstand a renewed motion to dismiss.” (internal quotation marks
omitted)), a different analysis applies where, as here, a plaintiff seeks leave after the Defendant
has moved for summary judgment. In such a case, the motion to amend “will not be granted
unless the party seeking amendment can show not only that the proposed amendment has
‘substantial merit,’ but also come forward with ‘substantial and convincing evidence’ supporting
the newly asserted claim.” Preston v. Vanguard Group, Inc., 14-7243, 2015 WL 7717296, at *6
(E.D. Pa. Nov. 30, 2015) (quoting Carey v. Beans, 500 F. Supp. 580, 582 (E.D. Pa. 1980))
Plaintiffs proposed amendment to Count 5, clarifying that the claim was for both
substantive and procedural due process rights, would have been futile because such an
amendment would not have cured the fatal defect discussed in greater detail above—namely, the
absence of any evidence suggesting that the evidence of her contacts with James and Richelle
Solomon supporting Friel’s citations was fabricated in the first instance. See Halsey, 750 F.3d at
295 (noting evidence “that is incorrect or simply disputed should not be treated as fabricated
merely because it turns out to have been wrong”). As to Count 6, Plaintiffs bid to amend was
futile because the claim to be amended was asserted only against Judge Koon, who the Court
dismissed from this action with prejudice on January 19, 2019. See Order, Jan. 19, 2017, ECF
No. 69.
Plaintiff s request to add a First Amendment retaliation claim alleging that Friel cited her
in retaliation for, inter alia, her complaints to Richelle Solomon’s employer was also denied as
futile. Where, as here, such a claim involves a retaliatory prosecution, a plaintiff must establish
the absence of probable cause. See Hartman v. Moore, 547 U.S. 250, 265-66 (2006) (holding the
absence of probable cause “must be pleaded or proven” in a First Amendment retaliation case
alleging a retaliatory prosecution). As discussed in greater detail in footnote 11, Plaintiff has
failed to establish that Friel lacked probable cause to cite her for harassment. The evidence in the
28

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 29 of 37

law,25 summary judgment will be entered in Defendants’ favor on each of the remaining state
claims.26
Count 3 of the Amended Complaint purports to advance a “common law” claim for abuse
of process against Friel. Plaintiffs theory of relief is somewhat difficult to follow, but it appears
she claims Friel abused the criminal process by citing Plaintiff for harassment in order to protect
James and retaliate against Plaintiff for seeking a PFA order against him.
Under Pennsylvania law, a defendant commits the tort of abuse of process by using the
legal process “for some unlawful purpose, not one for which it was intended. In other words, it is
a perversion of the legal process.” Shaffer v. Stewart, 473 A.2d 1017, 1019 (Pa. Super. Ct. 1984).
Unlike other state claims involving the misuse of legal proceedings, “it is immaterial” to the
abuse of process analysis whether the underlying process “was properly issued, that it was

record makes clear that the facts and circumstances known to Friel were sufficient to “warrant a
reasonable person to believe that an offense [had] been . . . committed by” Plaintiff. Orsatti, 71
F.3d at 483. Thus, her claim would have been deficient upon arrival, and justice did not require
granting Plaintiff leave to amend. See Turkos v. Dupont Borough, 721 F. App’x 208, 213-14 (3d
Cir. 2018) (affirming summary judgment in favor of defendants where plaintiff failed to produce
“sufficient conflicting evidence to call into question the reasonableness of the charging decision
based on the information within [the officers’] knowledge at the time decision was made”).
^ 25 The Court exercises supplemental jurisdiction even though it will grant summary judgment on
the federal claims because Plaintiffs state claims “are so related to claims in the action . . . that
they form part of the same case or controversy under Article III of the United States
Constitution,” 28 U.S.C. § 1367(a), and the parties having litigated this matter intensely for some
time, the Court finds “considerations of judicial economy, convenience, and fairness to the
parties provide an affirmative justification” for exercising jurisdiction over these claims. Sarpolis
v. Tereshko, 625 F. App’x 594, 599 (3d Cir. 2016) (quoting Hedges v. Musco, 204 F.3d 109, 123
(3d Cir. 2000)).
26 Plaintiff s Opposition to Defendants’ Motion does not address their Motion as it pertains to
Count 4, which alleges “Malicious Abuse of Civil Process” in violation of Pennsylvania’s
Dragonetti Act. As a result, the Court finds that Plaintiff has abandoned this claim, and will grant
Defendants’ Motion as it pertains to Count 4. See Manning, 2015 WL 3972609 at *5 (“A
plaintiff abandons a claim when they fail to respond to defendants’ arguments for summary
judgment as to that claim.”).
29

r
Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 30 of 37

obtained in the course of proceedings that were brought with probable cause and for a proper
purpose, or even that the proceedings terminated in favor of the person instituting or initiating
them.” Lerner v. Lerner, 954 A.2d 1229, 1238 (Pa. Super. Ct. 2008) (quoting Rosen v. Am. Bank
of Rolla, 627 A.2d 190, 192 (1993)). Rather, a plaintiff need only show that the defendant “(1)
used a legal process against the plaintiff, (2) primarily to accomplish a purpose for which the
process was not designedfj and (3) harm has been caused to the plaintiff.” Id. (quoting Shiner v.
Moriarly, 706 A.2d 1228, 1236 (Pa. Super. Ct. 1998)).
Even assuming the filing of the harassment citations satisfies the first element of the tort
and that Plaintiff suffered harm as a result of the citations by virtue of having had to appear at a
hearing related to the first citation (thus satisfying the claim’s third element), Plaintiff has failed
to produce any evidence from which a rational jury could find that Friel filed the citations for a
primary purpose other than holding Plaintiff accountable for harassing James. The record shows
Friel ordered Plaintiff and James to cease contact with each other after each complained to him
about harassment and/or threats by the other. Yet, Plaintiff persisted. As a result, Friel issued a
citation. Plaintiff has proffered no admissible evidence from which a jury could find that Friel’s
action was primarily motivated by something other than Plaintiffs alleged misconduct and so
summary judgment will issue in Defendants’ favor on this claim.
Plaintiff argues that summary judgment is inappropriate because Friel initiated criminal
process to protect his longtime friend, James. However, there is no evidence suggesting Friel
cited Plaintiff in the service of that relationship. In fact, the only evidence Friel may have had
any kind of prior relationship with James is an email from Plaintiffs friend “John” (who is not
otherwise identified) to Plaintiff from April 29, 2014. In that message, “John” states: “Spoke
with Friel who said he is aware of Dr. Brown’s concerns and is taking them very seriously. He

30

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 31 of 37

said he has known James Brown for 21 years and is aware of one proven incident in which he
was involved.” Opp’n Ex. 1-J (emphasis supplied). Even accepting this double-hearsay, the Court
is not persuaded that the mere existence of such a relationship is sufficient to withstand
Defendants’ motion. At most, the email hints at the possibility that Friel filed the harassment
citations with “bad intentions”; however, this is insufficient to support a claim for abuse of
process under Pennsylvania law. See Clausi v. Stuck, 74 A.3d 242, 250 (Pa. Super. Ct. 2013).
(noting Pennsylvania cases “unequivocally state” that evidence process was initiated “with bad
intentions” is “not enough” to withstand summary judgment).
Plaintiff also cites a number of documents which she believes support her claim. At their
core, these documents, which consist primarily of the harassment citations, docket sheets, and
print-outs of statutes, establish that Plaintiff was the subject of summary criminal proceedings.
However, even when construed in a light most favorable to Plaintiff, these documents do not
suggest that Friel acted for a purpose other than to hold Plaintiff accountable for what Friel
considered to be harassing behavior. Put simply, it is not enough for Plaintiff to have shown that
Friel instituted process against her or that she was harmed somehow by having to defend herself.
She must bridge the gulf between these issues by producing evidence from which a jury could
find that Friel issued the citations “primarily to accomplish a purpose for which the process was
not designed.” Lerner, 954 A.3d at 1238. She has not, and, therefore, Defendants are entitled to
summary judgment on Count 3.
Count 13 advances a claim for civil conspiracy under Pennsylvania law, although against
whom is not clear from her pleadings. Plaintiffs theory is somewhat obscured by the fact that
she addresses Count 13 in tandem with Counts 12 and 17, her federal civil rights conspiracy
claims, in her Opposition, and alleges no facts to support the claim in her Amended Complaint.

31

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 32 of 37

To the extent the Court can determine the parameters of Plaintiffs claim, it appears that she
claims Friel and Judge Koon conspired to “(1) generate revenue for the Court by filing false
criminal charges and levying fines against unwary individuals and (2) target and punish women
who file Protection from Abuse petition[s]—by wrongly accusing and prosecuting them for
violating an unlawful ‘Policy’ which distorts PA Act 23 Protection from Abuse Laws.” Opp’n
26-27.
In order to state a cause of action for civil conspiracy, the following elements are
required: “(1) a combination of two or more persons acting with a common purpose to do an
unlawful act or to do a lawful act by unlawful means or for an unlawful purpose; (2) an overt act
done in pursuance of the common purpose; and (3) actual legal damage.” Gen. Refractories v.
Fireman’s Fund Ins. Co., 337 F.3d 297, 313 (3d Cir. 2003) (citing Strickland v. Univ. of
Scranton, 700 A.2d 979, 987-88 (Pa. Super. Ct. 1997)). A plaintiff must also produce evidence
of “malice,” that is, “an intent to injure” the plaintiff. Skipworth by Williams v. Lead Indus.
Ass’n, Inc., 690 A.2d 169, 265 (Pa. 1997) (quoting Thompson Coal Co. v. Pike Coal Co., 412
A.2d 466, 472 (1979)). “Malice will only be found when the sole purpose of the conspiracy is to
cause harm to the party who has been injured.” Sarpolis v. Tereshko, 26 F. Supp. 3d 407, 423
(E.D. Pa. 2014); see also Thompson, 412 A.2d at 472 (affirming summary judgment on civil
conspiracy claim where “there are no facts of record which indicate that [the defendant] acted
solely to injure [plaintiffs]”).
Plaintiff alleges that Defendants engaged in a conspiracy to (1) generate revenue by
collecting fines from falsely accused criminal defendants and (2) punish women who seek
protection from abuse orders. In her Opposition, Plaintiff identifies 22 documents that she claims
support her claim for civil conspiracy. None of these documents—construed in a light most

32

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 33 of 37

favorable to Plaintiff and considered in isolation and in concert—supports an inference that Friel
or Judge Koon intended to harm Plaintiff, specifically, or to generate revenue by falsely accusing
individuals or punish female PFA petitioners, generally. At best, these documents substantiate
that Plaintiff was the subject of criminal process without shedding any light on whether
Defendants acted with malice (or, for that matter, in concert with one another). As a result, these
documents do not establish a genuine issue of material fact and summary judgment will issue in
Defendants’ favor on Count 13.
Counts 20 and 22 through 24 allege various theories of negligence under Pennsylvania
common law.27 The Pennsylvania Political Subdivision Tort Claims Act (PSTCA) grants
governmental immunity to local agencies and their employees for damages on account of any
injury to person or property. 42 Pa. Con. Stat. § 8542(a). The statute waives immunity where the
conduct at issue touches on any one of eight subjects: vehicle liability; care, custody or control of
personal property; real property; trees, traffic controls and street lighting; utility service facilities;
streets; sidewalks; and care, custody or control of animals. Id. § 8542(a-b). “Because of the clear
intent of [PTSCA] to insulate government from exposure to tort liability, the exceptions to
immunity are to be strictly construed.” Lockwood v. City of Pittsburgh, 751 A.2d 1136, 1139 (Pa.
2000) (alteration in original). None of the alleged negligence of which Plaintiff complains
touches on any of the enumerated exceptions to the PTSCA. As a result, Plaintiffs negligence

27

In Count 20, Plaintiff claims that unspecified Defendants breached their duty of care to her by,
allegedly, siding with James in their intra-family dispute. In Counts 22 and 23, Plaintiff claims
the Valley Township Manager and Board of Supervisors failed “to reasonably control or monitor
actions” of Friel and Judge Koon. In Count 24, Plaintiff alleges a claim for negligent infliction
of emotional distress against unspecified Defendants.
To the extent Counts 22 and 23 could also be reasonably construed as Monell claims,
Defendants are entitled to summary judgment in their favor for the same reasons justifying relief
with respect to Counts 18 and 19.
33

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 34 of 37

claims fail as a matter of law and the Court will grant summary judgment in Defendants’ favor
on Count 20, and 22 through 24.
Count 25 asserts a cause of action for intentional infliction of emotional distress.
Although Plaintiff does not specify against whom the claim is brought, the thrust of her claim is
directed toward Friel, who allegedly, “promised to help [her], but instead, launched a crusade
against her” and “instigated his friend James (Ms. Brown’s abuser) to escalate his threats and
violence. «

28

Opp’n 37. Defendants move for summary judgment on the grounds that Friel’s

conduct was not sufficiently outrageous to warrant liability. The Court agrees and will therefore
grant summary judgment in Defendants’ favor on Count 25.
In order to state a claim for intentional infliction of emotional distress under
Pennsylvania law, a plaintiff must allege “(1) the defendant’s conduct was extreme and
outrageous; (2) the conduct was intentional or reckless; (3) the conduct caused emotional
distress; and (4) the distress is severe.” Chuy v. Phila. Eagles Football Club, 565 F.2d 1265,
1273 (3d Cir. 1979). “The conduct must be so outrageous in character, and so extreme in degree,
as to go beyond all possible bounds of decency, and to be regarded as atrocious and utterly
intolerable in a civilized society.” Hoy v. Angelone, 720 A.2d 745, 754 (Pa. 1998). “It is for the
Court to determine in the first instance whether the conduct is extreme and outrageous, such that
recovery may be permitted.” Cheney v. Daily News L.P., 654 F. App’x 578, 583 (3d Cir. 2016)
(citing Small v. Juniata Coll., 682 A.2d 350, 355 (Pa. Super. Ct. 1996)).
28 The Court does not consider the allegations against Judge Koon for the reasons stated above.
And, because Plaintiff has failed to establish a genuine issue of material fact as to Friel, it need
not consider whether the Valley Township Manager and Board of Supervisors are liable for his
intentional conduct based on respondeat superior—even assuming respondeat superior applies to
such conduct. See Spitsin v. WGM Transp., Inc. 91 F.774, 776 (Pa. Super. Ct. 2014) (“A master
is liable for the acts of his servant [that] are committed during the course of and within the scope
of the servant’s employment. This liability of the employer may extend even to intentional or
criminal acts.” (alterations in original, emphasis added, internal citations omitted)).
34

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 35 of 37
r »

Courts have found “only the most egregious conduct” to be actionable. Hoy, 720 A.2d at
151. Examples of actionable conduct include: a defendant who buried a child’s dead body in a
field without seeking medical attention prior to the child’s death or notifying authorities or the
child’s parents for months, see Papieves v. Lawrence, 263 A.2d 118, 121 (1970), the intentional
fabrication of records to suggest that the plaintiff murdered a third party resulting in his
indictment for homicide, see Banyas v. Lower Bucks Hospital, 437 A.2d 1236, 1238-39 (1981),
and a the release of information that the plaintiff was suffering from a fatal disease by a
physician, despite the physician’s knowledge such information was false, see Chuy, 565 F.2d at
1265. In more recent cases, courts have found sufficiently outrageous conduct where defendants
were alleged to have left “a man charged with murder, attempted murder, aggravated assault,
robbery, and resisting arrest, unrestrained in a public hospital,” Martin-UcFarlane v. City of
Phila., 299 F. Supp. 3d 658, 671 (E.D. Pa. 2017), and where police, during a stand-off, were
alleged to have disconnected a plaintiff s electricity, threatened to arrest him on felony charges if
he failed to cooperate, fired hundreds of canisters of pepper spray into his home, and played loud
music and other screeching noises, all of which culminated in the plaintiffs suicide, see
Heckensweiler v. McLaughlin, 517 F. Supp. 2d 707, 720 (E.D. Pa. 2007). In contrast, at least one
Pennsylvania appellate court has noted that “[p]olice officers doing their job by arresting people
when they have probable cause to do so certainly falls far short of extreme or outrageous
conduct.” Manley v. Fitzgerald, 997 A.2d 1235, 1241 (Pa. Commw. Ct. 2010) (affirming trial
court’s order granting summary judgment in favor of defendant police officers where officers
had probable cause to effectuate arrest of plaintiffs).
Having reviewed the record, the Court finds there is insufficient evidence from which a
rational factfinder could conclude that Friel’s conduct—or the conduct of any other party—was

35

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 36 of 37

extreme and outrageous under the applicable standard. The evidence before the Court shows—
and Plaintiff has not adduced evidence from which a jury could conclude otherwise—that Friel
tried to defuse a vitriolic family dispute, and that when those efforts failed, he sought to have the
offending party punished by citing her for harassment. Under these circumstances, the Court
concludes that Friel’s conduct was not “beyond all possible bounds of decency.” Hoy, 720 A.2d
at 754. More specifically, it appears to the Court that Friel was, similar to the defendant-officers
in Manley, doing his job by issuing citations to Plaintiff after receiving evidence she persisted in
unwanted contact. As a result, the Court finds that the Friel’s conduct was not sufficiently
outrageous to support a claim for intentional infliction of emotional distress and the Court will
grant summary judgment on Count 25 in Defendants’ favor.
Finally, the Court turns to several additional motions Plaintiff filed after briefing on
Defendants’ motion for summary judgment completed.29 The Court will dismiss Documents 133,
135, and 136—each of which of raises issues identical to those addressed above

as moot,

having determined that the Defendants are entitled to summary judgment. The Court will also
deny Document 140, which seeks sanctions under 28 U.S.C. § 1927, Federal Rules of Civil
Procedure 16, 26, and 37, and the Court’s inherent authority, because sanctions are not
warranted.
CONCLUSION

29 While Defendants’ Motion for Summary Judgment was under advisement, Plaintiff filed a
Motion for Judgment on the Pleadings (Document 133), Corrected Motion for Judgment on the
Pleadings (Document 135), a “Motion for Court Order Mandating Defendant Police to Properly,
and Permanently Disarm Plaintiffs Valley Twp Known Stalker (Pursuant to PA Title 23 C.S. §§
6101-22 and Judges Prat and Bortners Original Orders” (Document 136); and a “Motion for
Sanctions Pursuant to 28 USC 1927 also FRCP 16, 26 and 37 and the Court’s Inherent Authority
and to Strike Defendant’s Oppositions and Defenses” (Document 140).
36

Case 2:16-cv-01819-JS Document 143 Filed 08/26/19 Page 37 of 37

For the reasons stated above, the Court will grant Defendants’ Motion for Summary
Judgment in its entirety.
Having determined that Defendants are entitled to summary judgment on each of
Plaintiffs claims, the Court will dismiss as moot Plaintiffs Motion for Judgment on the
Pleadings (Document 133), Corrected Motion for Judgment on the Pleadings (Document 135),
“Motion for Court Order Mandating Defendant Police to Properly and Permanently Disarm
Plaintiffs Valley TWP Known Stalker” (Document 136). The Court will also deny “Motion for
Sanctions Pursuant to 28 U.S.C. § 1927 also FRCP 16, 26 and 37 and the Court’s Inherent
Authority and to Strike Defendant’s Oppositions and Defenses” (Document 140).
An appropriate order follows.

BY THE COURT:

/s/ Juan R. Sanchez
Juan R. Sanchez, C.J.

37

